Audit Report




OIG-08-037
GENERAL MANAGEMENT: Office of Management Needs to
Improve Its Monitoring of the Department’s Audit Follow-up
Process

June 23, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report.................................................................................................... 1

    Background ................................................................................................ 2

    Finding and Recommendations ...................................................................... 4

        Treasury’s Audit Follow-up Needs to be Improved ...................................... 4

        Recommendations................................................................................... 6

Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................             8
    Appendix     2:      Deficiencies Noted in the Department’s Audit Tracking System ..                        9
    Appendix     3:      Management Response .........................................................         10
    Appendix     4:      Report Distribution................................................................   12

Abbreviations

    DCFO                 Deputy Chief Financial Officer
    DO                   Departmental Offices
    JAMES                Joint Audit Management Enterprise System
    OIG                  Treasury Office of Inspector General
    OMB                  Office of Management and Budget
    PCA                  planned corrective action
    SAR                  semiannual report
    TFFC                 Office of Terrorist Financing and Financial Crimes




                         Office of Management Needs to Improve Its Monitoring of the                        Page i
                         Department’s Audit Follow-up Process (OIG-08-037)
         This page intentionally left blank.




Office of Management Needs to Improve Its Monitoring of the   Page ii
Department’s Audit Follow-up Process (OIG-08-037)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       June 23, 2008

                       Peter B. McCarthy
                       Assistant Secretary for Management
                         and Chief Financial Officer

                       In December 2007, the House Committee on Oversight and
                       Government Reform asked us to provide certain information
                       relating to Treasury Office of Inspector General (OIG) audit
                       recommendations that had not been implemented.1 In letters dated
                       January 30 and March 6, 2008, we provided this information to
                       the Committee for 20 audit recommendations that had not been
                       implemented as of September 30, 2007.

                       In obtaining the information, we noted certain weaknesses in
                       Treasury’s audit follow-up process. These weaknesses are the
                       subject of this report. In brief, we found that (1) audit follow-up
                       was not consistently performed on audit recommendations by the
                       responsible Treasury officials; (2) the status of numerous audit
                       recommendations was not updated in the Joint Audit Management
                       Enterprise System (JAMES), Treasury’s audit recommendation
                       tracking system; (3) planned corrective actions (PCA) were not
                       consistently recorded in JAMES; and (4) an audit follow-up officer
                       was not designated for the Office of Terrorist Financing and
                       Financial Crimes (TFFC). We are making three recommendations in
                       this report to address these matters.

                       Appendix 1 contains a detailed description of our objective, scope,
                       and methodology.



1
  For each recommendation, the Committee asked us to provide (1) a summary of the recommendation;
(2) the status of the recommendation, including whether management agreed with it and an explanation
for the delay in its implementation; (3) estimated cost savings expected to result from implementing the
recommendation; and (4) a description of any nonmonetary benefits expected to result from
implementing the recommendation.

                       Office of Management Needs to Improve Its Monitoring of the                Page 1
                       Department’s Audit Follow-up Process (OIG-08-037)
    Background
                       As stated in the Office of Management and Budget Circular No.
                       A-50, Revised, Audit Follow-up, dated September 29, 1982, audit
                       follow-up is an integral part of good management and is a shared
                       responsibility of agency management officials and auditors. Within
                       the Department, Treasury Directive 40-03, Treasury Audit
                       Resolution, Follow-Up, and Closure, dated February 2, 2005,
                       assigns responsibilities and includes policies and procedures for
                       implementing and monitoring audit follow-up.

                       The Department uses JAMES to track audit reports and the related
                       recommendations. Treasury management is responsible for
                       monitoring and updating the PCAs and status of audit
                       recommendations in JAMES.

                       According to Treasury Directive 40-03, the Deputy Chief Financial
                       Officer (DCFO) within the Office of Management is responsible for
                       (1) ensuring the centralized tracking of audit reports from final
                       report issuance through corrective action implementation,
                       validation, and closure; (2) ensuring that the Department/bureaus
                       provide timely and adequate information to the Office of the DCFO
                       on the status of audit recommendations and corrective actions;
                       (3) monitoring bureau actions and providing periodic reports for
                       Departmental senior management officials; (4) evaluating audit
                       follow-up performance Department-wide, through mechanisms
                       including sample on-site verifications of corrective actions taken,
                       gathering statistical data, and making recommendations to
                       strengthen audit follow-up performance; and (5) ensuring the
                       adequacy of audit follow-up activities within the Departmental
                       Offices (DO) and designating audit follow-up officers for DO.2

                       Audit follow-up officers are responsible for (1) coordinating the
                       audit report response, which includes PCAs, dates, and other
                       milestones for achieving results; (2) following the completion of the
                       audit resolution process; (3) ensuring, through independent
                       verification and validation, that recommendations are implemented
                       and corrective actions are taken in a timely fashion; and

2
 Treasury Directive 40-03 states that bureau heads are responsible for designating bureau audit follow-
up officers.

                       Office of Management Needs to Improve Its Monitoring of the               Page 2
                       Department’s Audit Follow-up Process (OIG-08-037)
                      (4) maintaining and tracking audit recommendations and corrective
                      actions within their respective bureaus through JAMES.

                      We use the information recorded in JAMES to report certain
                      statistical information in OIG’s semiannual reports (SAR) to
                      Congress required by the Inspector General Act, as amended.3
                      Specifically, each SAR must include a list of significant,
                      unimplemented recommendations.

                      In preparing SARs, we review JAMES reports that show
                      unimplemented recommendations. For recommendations from prior
                      annual financial audits showing as unimplemented in JAMES, we
                      consider the results of any ongoing financial audits and exclude
                      from the SAR list any recommendations that current audits confirm
                      have been implemented. Such discrepancies occur frequently. For
                      example, when preparing the SAR as of September 30, 2007, we
                      identified 15 audit recommendations from prior financial audits that
                      JAMES showed were unimplemented but that the most recent
                      financial audits found had, in fact, been implemented. Because
                      performance audits do not recur annually, we do not routinely
                      conduct a firsthand assessment of the implementation status of
                      performance audit recommendations.4 Therefore, we typically rely
                      solely on JAMES for reporting unimplemented recommendations
                      from performance audits.




3
  The SAR reporting requirements are defined in 5 U.S.C. App. 3, § 5. The Inspector General is required
to issue the SAR to the Secretary of the Treasury by April 30 and October 31 each year, covering the
activities for the 6-month periods ending March 31 and September 30, respectively. The Secretary then
has 30 days to transmit the SAR to the appropriate congressional committees. Our SARs are publicly
posted on the Treasury OIG Web site.
4
  As described in the OIG’s Annual Plans, we perform corrective action verifications on selected
recommendations that have been recorded as implemented in JAMES. We also perform follow-up audits
on higher-risk program areas as considered necessary.

                      Office of Management Needs to Improve Its Monitoring of the                Page 3
                      Department’s Audit Follow-up Process (OIG-08-037)
Finding and Recommendations

            Treasury’s Audit Follow-up Needs to be Improved
            We noted the following deficiencies in the Department’s audit
            follow-up process:

            •   Responsible Treasury officials did not consistently follow up on
                audit recommendations.

                Treasury Directive 40-03 states that audit follow-up is an
                essential component of sound management controls and overall
                government efficiency. According to Department management,
                the Office of the DCFO does not monitor the bureaus and
                offices, with the exception of DO, to assure timely and proper
                resolution and implementation of audit recommendations. In
                addition, Treasury offices and bureaus did not consistently
                (1) include PCAs in JAMES, (2) monitor the status of the audit
                recommendation, and (3) update the Department’s audit
                tracking system as necessary.

            •   Numerous audit reports and related audit recommendations
                were not updated as closed in JAMES after implementation of
                PCAs were completed.

                During our review, we found that 21 audit recommendations
                listed as open in JAMES were considered closed by the
                responsible Treasury official. For 15 of the 21
                recommendations, we identified the erroneous information in
                JAMES when preparing our SAR for the period ended
                September 30, 2007. PCAs for 9 of these 15 recommendations
                had been implemented as much as 2 years earlier.

                The remaining 6 of the 21 audit recommendations were
                identified in the preparation of our response to the Committee.
                We found that the responsible Treasury officials had considered
                the PCAs implemented for 6 recommendations listed as open in
                the SAR as of that date but JAMES had not been updated to
                reflect the change in status. The PCAs for 2 of the 6



            Office of Management Needs to Improve Its Monitoring of the     Page 4
            Department’s Audit Follow-up Process (OIG-08-037)
    recommendations had been implemented more than a year
    earlier.

    See appendix 2 for a list of the audit reports and the 21 audit
    recommendations.

•   No PCAs were included in JAMES for 43 audit
    recommendations.

    PCAs were not included for (1) 16 of the 21 audit
    recommendations discussed above that were considered closed
    by management but had not been properly updated in JAMES;
    (2) 4 of the 20 unimplemented recommendations included in our
    January 30 and March 6, 2008 letters to the House Committee
    on Oversight and Government Reform; and (3) 23
    recommendations reported in fiscal year 2007 and still
    considered open in JAMES.

    Treasury Directive 40-03 lists “development, implementation,
    and validation of detailed corrective actions” as a primary step
    in the audit follow-up process.

    See appendix 2 for a list of the audit reports and
    recommendations lacking PCAs.)

•   No audit follow-up officer had been formally designated for
    TFFC, an office within DO.

    JAMES contained no PCAs, due dates, or status information for
    four recommendations to TFFC management made in a March
    2005 OIG audit report. Lack of such items is further indication
    of inadequate monitoring and audit follow-up by the Office of
    DCFO. After this matter was brought to the DCFO’s attention,
    an audit follow-up officer was designated for TFFC.

An inadequate audit follow-up process increases the risk that the
Department’s offices and bureaus will not properly and promptly
address audit recommendations, diminishing the value of the audit
process to improve program and operations.




Office of Management Needs to Improve Its Monitoring of the       Page 5
Department’s Audit Follow-up Process (OIG-08-037)
Recommendations

We recommend that the Assistant Secretary for Management and
Chief Financial Officer ensures the Office of the DCFO does the
following:

1. develop and implement a plan to perform its responsibilities
   required by Treasury Directive 40-03 to include, among other
   things, monitoring and performing oversight of all bureaus and
   offices to assure timely and proper resolution and
   implementation of audit recommendations.

    Management Response

    Management agreed with the recommendation and plans on
    developing and implementing a plan to improve the execution of
    the DCFO’s responsibilities as required by TD 40-03 and OMB
    Circular A-50 to include monitoring and performing oversight of
    all bureaus and offices to assure timely and proper resolution
    and implementation of audit recommendations. The target
    implementation date this action is September 30, 2008.

2. ensure audit follow-up officers Treasury-wide perform the duties
   required by Treasury Directive 40-03, including (a) preparing
   PCAs, (b) monitoring the status of the audit recommendations,
   and (c) updating the Department’s audit tracking system as
   necessary.

    Management Response

    Management agreed with the recommendation and plans on
    including actions in the plan referenced in the corrective action
    to Recommendation 1 to ensure audit follow-up officers
    Treasury-wide perform the duties required by TD 40-03,
    including preparing PCAs, monitoring the status of their audit
    recommendations, and updating JAMES as necessary. The
    target implementation date for this action is September 30,
    2008.

3. ensure that audit follow-up officers are designated to provide
   for appropriate, continuous coverage of all DO offices.


Office of Management Needs to Improve Its Monitoring of the      Page 6
Department’s Audit Follow-up Process (OIG-08-037)
    Management Response

    Management agreed with the recommendation and plans on
    compiling and maintaining a Treasury-wide list of audit follow-
    up officers and coordinators. The target implementation date for
    this action is July 31, 2008.

OIG Comment

We believe the planned corrective actions are responsive to our
recommendations.

                                *******

The major contributors to this report were Susan Barron, Audit
Director, and Catherine Yi, Audit Manager. We appreciate the
courtesies and cooperation provided to our staff. If you wish to
discuss this report, you may contact me at (202) 927-5400.




Marla A. Freedman
Assistant Inspector General for Audit




Office of Management Needs to Improve Its Monitoring of the    Page 7
Department’s Audit Follow-up Process (OIG-08-037)
Appendix 1
Objective, Scope, and Methodology




In December 2007, the House Committee on Oversight and
Government Reform asked us to provide certain information
relating to Treasury OIG audit recommendations that had not been
implemented. We obtained the information from the responsible
offices and bureaus within the Department. In letters dated
January 30 and March 6, 2008, we provided the requested
information to the Committee.

We focused, but did not limit, our work to recommendations from
Treasury Office of Inspector General audit reports issued before
fiscal year 2007 that, according to the Joint Audit Management
Enterprise System (JAMES), had not been implemented as of
September 30, 2007. However, as a result of certain weaknesses
noted in obtaining the requested information, we performed
additional procedures.

Specifically, we:

•   reviewed Office of Management and Budget and Treasury
    policies and procedures related to audit follow-up;
•   reviewed issued audit reports;
•   discussed the audit follow-up process and JAMES with
    Department management;
•   reviewed and discussed with the appropriate bureau or office
    officials the necessary information related to audit
    recommendations listed in JAMES as being unimplemented;
•   reviewed the necessary information provided by the appropriate
    officials for consistency with the information reported in
    JAMES; and
•   reviewed the respective JAMES PCA reports for the OIG audit
    reports, that, according to JAMES, had unimplemented
    recommendations as of September 30, 2007, to determine
    whether PCAs had been prepared and/or PCA due dates had
    been updated.

We performed our work from December 2007 to February 2008.
We conducted our audit in accordance with generally accepted
government auditing standards.




Office of Management Needs to Improve Its Monitoring of the   Page 8
Department’s Audit Follow-up Process (OIG-08-037)
                Appendix 2
                Deficiencies Noted in the Department’s Audit Tracking System




Deficiency                            Report No.       Recommendations Nos.
Recommendations implemented but       OIG-04-035       Finding 4, Recommendation 1
shown as open in JAMES
(21 recommendations)
                                      OIG-05-036       Finding   1,   Recommendations 1,2,3
                                      OIG-05-037       Finding   1,   Recommendations 1,2
                                      OIG-05-043       Finding   2,   Recommendations 3,5
                                      OIG-05-045       Finding   1,   Recommendation 1
                                      OIG-06-002       Finding   1,   Recommendation 1
                                                       Finding   2,   Recommendation 1
                                                       Finding   4,   Recommendation 1
                                      OIG-06-020       Finding   1,   Recommendation 1
                                                       Finding   4,   Recommendation 1
                                      OIG-06-023       Finding   1,   Recommendations 1,2
                                      OIG-06-024       Finding   1,   Recommendations 1,2
                                      OIG-06-043       Finding   3,   Recommendation 1
                                      OIG-06-044       Finding   1,   Recommendations 1,2
Recommendations with PCAs not         OIG-05-032       Finding   1,   Recommendation 1
included in JAMES                                      Finding   2,   Recommendations 1,2,3
(43 recommendations)
                                      OIG-05-036       Finding   1,   Recommendations 1,2,3
                                      OIG-05-037       Finding   1,   Recommendations 1,2
                                      OIG-05-045       Finding   1,   Recommendation 1
                                      OIG-06-002       Finding   1,   Recommendation 1
                                                       Finding   2,   Recommendation 1
                                                       Finding   3,   Recommendation 1
                                                       Finding   4,   Recommendation 1
                                      OIG-06-023       Finding   1,   Recommendations 1,2
                                                       Finding   2,   Recommendations 1,2
                                      OIG-06-024       Finding   1,   Recommendations 1,2
                                      OIG-07-022       Finding   1,   Recommendations 1,2
                                                       Finding   2,   Recommendations 1,2
                                                       Finding   3,   Recommendations 1,2,3,4
                                                       Finding   4,   Recommendations 1,2,3
                                      OIG-07-026       Finding   1,   Recommendations 1,2
                                                       Finding   2,   Recommendations 1,2,3
                                                       Finding   3,   Recommendations 1,2
                                      OIG-07-027       Finding   1,   Recommendations 1,2
                                      OIG-07-028       Finding   1,   Recommendations 1,2,3




                Office of Management Needs to Improve Its Monitoring of the                     Page 9
                Department’s Audit Follow-up Process (OIG-08-037)
Appendix 3
Management Response




Office of Management Needs to Improve Its Monitoring of the   Page 10
Department’s Audit Follow-up Process (OIG-08-037)
Appendix 3
Management Response




Office of Management Needs to Improve Its Monitoring of the   Page 11
Department’s Audit Follow-up Process (OIG-08-037)
Appendix 4
Report Distribution




Department of the Treasury

Office of the Treasury Deputy Chief Financial Officer
Office of Accounting and Internal Control

Office of Management and Budget

OIG Budget Examiner

United States House of Representatives

Chairman, Committee on Oversight and Government Reform
Ranking Member, Committee on Oversight and Government Reform




Office of Management Needs to Improve Its Monitoring of the   Page 12
Department’s Audit Follow-up Process (OIG-08-037)
